@ BECKER GALLAGHER Donna J. Wot, }.D.

aries and Records Juue A. Kerstiner, JD.

CERTIFICATE OF COMPLIANCE

No. 19-1186

JOSHUA BAKER, in his official capacity as Director,
South Carolina Department of Health and Human
Services,

Petitioner,

Vv.

JULIE EDWARDS, on her behalf and on behalf of all
others similarly situated, et al.,

Respondents,

As required by Supreme Court Rule 33.1(h), I certify
that the Brief of Amici Curiae 86 Current and 2 Former
South Carolina Legislators Supporting Petitioner
contains 4,933 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on April 29, 2020

 
 

William C. Doering, 7
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249

(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED. 8790 Governor's Hill Drive Franklin Square
(800) 890.5001 Suite 102 1300 I Street, NW, Suite 400E
www.beckergallagher.com Cincinnati, Ohio 45249 Washington, DC 20005
Sworn to and subscribed before me by said Affiant
on the date designated below.

Date: _Geeel 99, Jodo _

t “e /
The A . JU 4
Notary Public Sy
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

 
